2029 Century Park East | 6th Floor |Los Angeles, CA 90067

Phone:

(424) 239-3438

Fax:

(424) 239-3434

Email:

ludwig@blankrome.com

August 20, 2020
VIA ECF
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Sherry Hernandez v. PNMAC Mortgage Opportunity Investors, et al.
Case No. 20-112

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was docketed on August
3, 2020, and any response is currently due on September 2, 2020. Pursuant to Rule 30.4,
respondents, PNMAC Mortgage Opportunity Investors, LLC (“PNMAC”) and PennyMac Loan
Services, LLC (“PennyMac Loan” collectively with PNMAC, “PennyMac”), respectfully request
an extension of time to and including October 2, 2020 in which to file any response to the
petition.
We are requesting an extension due to the press of other business, and the disruption
caused by the ongoing COVID-19 pandemic. This is the first request for an extension.
Petitioner consents to this request.
Thank you for your consideration of this request.
Sincerely,

Michael L. Ludwig
cc: Rhonda Hernandez, Counsel of Record for Petitioner (by ECF and Email)

Blank Rome LLP | blankrome.com

